TN

C@OCKLE

4 E-Mail Address:
Le 6a 1B ae f 3 contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964 : Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-875

OTO, L.L.C.
Petitioner,

Vv.
KEN KHO;
JULIE A. SU, CALIFORNIA LABOR COMMISSIONER,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 13th day of February, 2020, send out
from Omaha, NE 3 package(s) containing 3 copies of the BRIEF AMICUS CURIAE OF ATLANTIC LEGAL
FOUNDATION IN SUPPORT OF PETITIONER in the above entitled case. All parties required to be served have been
served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
MARTIN S. KAUFMAN
Counsel of Record
ATLANTIC LEGAL FOUNDATION
500 Mamaroneck Avenue
Suite 320
Harrison, NY 10528
(914) 834-3322
mskaufman@atlanticlegal.org
Counsel for Amicus Curiae

Subscribed and sworn to before me this 13th day of February, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
oe | Zbl Oude
My Commission Expires Nov 24, 2020 E .

Notary Public Affiant 39463

 

 
Service List

KANNON K. SHANMUGAM
PAUL, WEISS, RIFKIND,
WHARTON & GARRISON LLP
2001 K Street, N.W.
Washington, DC 20006
kshanmugam@paulweiss.com
(202) 223-7300
Counsel of Record for Petitioner

David A. Rosenfeld

Weinberg, Roger & Rosenfeld

1001 Marina Village Parkway, Suite 200
Alameda, CA 94501
drosenfeld@unioncounsel.net

510-337-1001

Counsel of Record for Respondent KEN KHO

Miles E. Locker

California Department of Industrial Relations
Division of Labor Standards Enforcement

455 Golden Gate Avenue, 9th Floor

San Francisco, CA 94102
drosenfeld@unioncounsel.net

510-337-1001

Counsel of Record for Respondent

JULIE A. SU, CALIFORNIA LABOR COMMISSIONER
